c OCKLE
2311 Douglas Street CA : E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

Omaha, Nebraska 68102-1214 .
Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-827

UNITED STATES OF AMERICA,
Petitioner,
v.
ZAYN al-ABIDIN MUHAMMAD HUSAYN,
aka ABU ZUBAYDAH, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF HUMAN
RIGHTS ORGANIZATIONS AS AMICI CURIAE IN SUPPORT OF RESPONDENTS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7660 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 20th day of August. 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska Kv Chk
RENEE J. GOSS O. ¢ deed caer 4

Affiant

 

My Comm. Exp. September 5, 2023

N
jotary Public 41192
